App. 1
23 Cal.App.5th 696
Review Granted
Court of Appeal, Fourth District, Division 1, California.
The PEOPLE, Plaintiff and Respondent,
v.
Peter BALOV, Defendant and Appellant.
D073018
|
Filed 5/23/2018
Attorneys and Law Firms
Law Office of David Wilson and David Wilson; Law Offices of Gretchen von Helms and Gretchen C. von
Helms, San Diego for Defendant and Appellant.
Mara W. Elliot, City Attorney, John C. Hemmerling, Assistant City Attorney, and Shelley A. Webb, Deputy
City Attorney, for Plaintiff and Respondent.
Opinion
BENKE, Acting P. J.
After Peter Balov was arrested for suspected
drunk driving, the arresting officer advised Balov “that
per California law he was required to submit to a
chemical test, either a breath or a blood test.” Balov did
not object and chose a blood test, which showed his
blood alcohol level was above the legal limit. Balov
was charged with misdemeanor driving under the

App. 2
influence (Veh. Code, § 23152, subds. (a) & (b)).1 Before
trial, Balov moved to suppress the results of the blood
test, arguing, inter alia, that his consent to the test was
coerced. The court denied the motion, the appellate division affirmed, and Balov now challenges the ruling
here, arguing as he did below that his consent to the
blood test was not voluntary. We reject Balov’s argument and affirm the order.
FACTUAL AND PROCEDURAL BACKGROUND
At the hearing on Balov’s motion to suppress, San
Diego Police Officer Luis Martinez testified that just
before 3:00 a.m. on March 22, 2015, he saw Balov abruptly stop his black Range Rover in an intersection
when the traffic signal turned yellow. In response, Martinez turned on his police vehicle’s emergency lights
and instructed Balov to pull over. Martinez reported
that he noticed the smell of alcohol on Balov’s breath
and that Balov’s speech was slurred. Balov admitted
he had been drinking and agreed to submit to field sobriety exercises and a preliminary breath sample,
which showed his blood alcohol level was over the legal
limit.
As a result, Martinez placed Balov under arrest
for driving under the influence of alcohol. Martinez testified that after the arrest, he informed Balov of the
implied consent law, telling Balov “that per California
Law he was required to submit to a chemical test, either a breath or a blood test.” Martinez did not inform
1

Undesignated statutory references are to the Vehicle Code.

App. 3
Balov of the statutory consequences of refusing a test.
Balov stated he wanted a blood test and Martinez
drove Balov to the police headquarters. During the routine blood draw that followed, Balov was calm and gave
no indication of wanting to refuse the test.
Before trial, Balov moved to suppress the results
of the warrantless blood test under Penal Code section
1538.5, arguing that his consent was invalid because
Martinez had not explained the consequences of refusing chemical testing under section 23612. The city
attorney opposed the motion. After the evidentiary
hearing, the trial court denied Balov’s motion. The
court concluded that under the totality of the circumstances, Balov voluntarily consented to the blood
test and the test was not taken in violation of his
Fourth Amendment right to be free from unreasonable
searches.
Balov challenged the order in the San Diego
County Superior Court’s Appellate Division, which
unanimously affirmed the trial court’s order. After the
city attorney filed a request for publication of the appellate division’s order, on its own motion, the division
certified the matter for transfer to this court. The certification order notes a split of authority on the issue
of implied consent contained in two decisions of the
Santa Clara County Superior Court Appellate Division, People v. Mason (2016) 8 Cal.App.5th Supp. 11,
214 Cal.Rptr.3d 685 (Mason), and People v. Agnew
(2015) 242 Cal.App.4th Supp. 1, 195 Cal.Rptr.3d 486
(Agnew). We accepted the transfer under California
Rules of Court, rule 8.1008.

App. 4
DISCUSSION
I
“The standard of appellate review of a trial court’s
ruling on a motion to suppress is well established. We
defer to the trial court’s factual findings, express or implied, where supported by substantial evidence. In determining whether, on the facts so found, the search or
seizure was reasonable under the Fourth Amendment,
we exercise our independent judgment.” (People v. Glaser (1995) 11 Cal.4th 354, 362, 45 Cal.Rptr.2d 425, 902
P.2d 729.)
A blood draw is a search subject to the Fourth
Amendment. (Schmerber v. Cal. (1966) 384 U.S. 757,
767, 86 S.Ct. 1826, 16 L.Ed.2d 908.) Under the Fourth
Amendment “[t]he right of the people to be secure in
their persons, houses, papers, and effects, against unreasonable searches and seizures, shall not be violated, and no Warrants shall issue, but upon probable
cause. . . .” While the Fourth Amendment does not
specify when a search warrant must be obtained, the
United States Supreme Court “has inferred that a warrant must generally be secured.” (Kentucky v. King
(2011) 563 U.S. 452, 459, 131 S.Ct. 1849, 179 L.Ed.2d
865.) However, “the ultimate touchstone of the Fourth
Amendment is ‘reasonableness.’ ” (Brigham City v.
Stuart (2006) 547 U.S. 398, 403, 126 S.Ct. 1943, 164
L.Ed.2d 650.) “The Fourth Amendment does not proscribe all state-initiated searches and seizures; it
merely proscribes those which are unreasonable.”
(Florida v. Jimeno (1991) 500 U.S. 248, 250, 111 S.Ct.

App. 5
1801, 114 L.Ed.2d 297.) It is well established that a
consensual search does not violate the Fourth Amendment “because it is no doubt reasonable for the police
to conduct a search once they have been permitted to
do so.” (Id. at pp. 250-251, 111 S.Ct. 1801.)
“The Fourth Amendment test for a valid consent
to search is that the consent be voluntary, and ‘voluntariness is a question of fact to be determined from all
the circumstances. . . .’ ” (Ohio v. Robinette (1996) 519
U.S. 33, 40, 117 S.Ct. 417, 136 L.Ed.2d 347.) “ ‘If the
validity of a consent is challenged, the prosecution
must prove it was freely and voluntarily given—i.e.,
“that it was [not] coerced by threats or force, or granted
only in submission to a claim of lawful authority.” [Citations.]’ ” (People v. Harris (2015) 234 Cal.App.4th
671, 689-690, 184 Cal.Rptr.3d 198 (Harris).) “ ‘ “The . . .
voluntariness of the consent is to be determined in the
first instance by the trier of fact; and in that stage of
the process, ‘The power to judge credibility of witnesses, resolve conflicts in testimony, weigh evidence
and draw factual inferences, is vested in the trial court.
On appeal all presumptions favor proper exercise of
that power, and the trial court’s findings—whether express or implied—must be upheld if supported by substantial evidence.’ ” ’ ” (Id. at p. 690, 184 Cal.Rptr.3d
198.)
Under section 23612, a “person who drives a motor
vehicle is deemed to have given his or her consent to
chemical testing of his or her blood or breath for the
purpose of determining the alcoholic content of his or
her blood, if lawfully arrested for an offense allegedly

App. 6
committed in violation of Section 23140, 23152, or
23153.” (§ 23612, subd. (a)(1)(A).) The statute “applies
broadly and generally to ‘those who drive’—that is, to
those who avail themselves of the public streets, roads,
and highways to operate motor vehicles in this state.”
(Troppman v. Valverde (2007) 40 Cal.4th 1121, 1139, 57
Cal.Rptr.3d 306, 156 P.3d 328 (Troppman).)
The implied consent law was adopted in response
to the United States Supreme Court’s decision in
Schmerber, which “approved forcible, warrantless chemical testing of arrested persons under certain conditions, including certain exigent circumstances.” (Agnew,
supra, 242 Cal.App.4th Supp. at p. 6, 195 Cal.Rptr.3d
486.) “ ‘Although it is clear under Schmerber that a person who has been lawfully arrested may have a blood
sample forcibly removed without his consent, provided
[certain conditions are met], nevertheless such an episode remains an unpleasant, undignified and undesirable one.’ ” (Mercer v. Department of Motor Vehicles
(1991) 53 Cal.3d 753, 759, 280 Cal.Rptr. 745, 809 P.2d
404, quoting People v. Superior Court of Kern County
(Hawkins) (1972) 6 Cal.3d 757, 764, 100 Cal.Rptr. 281,
493 P.2d 1145.) “[B]y enacting the implied consent law,
thereby providing an alternative method of compelling
a person arrested for driving while under the influence
to submit to chemical testing, the Legislature afforded
officers a means of enforcement that does not involve
physical compulsion.” (Troppman, supra, 40 Cal.4th at
p. 1136, 57 Cal.Rptr.3d 306, 156 P.3d 328.)
Under section 23612, by the act of driving on California’s roads, Balov accepted the condition of implied,

App. 7
advance consent if lawfully arrested for drunk driving.2 That advance consent, however, could also have
been withdrawn at the time of arrest by Balov’s objection to a breath test or blood draw. “ ‘[T]he implied consent law is explicitly designed to allow the driver, and
not the police officer, to make the choice as to whether
the driver will give or decline to give actual consent to
a blood draw when put to the choice between consent
or automatic sanctions. Framed in the terms of “implied consent,” choosing the “yes” option affirms the
driver’s implied consent and constitutes actual consent
for the blood draw. Choosing the “no” option acts to
withdraw the driver’s implied consent and establishes
that the driver does not give actual consent.’ [Citation.]
Therefore, rather than determine whether ‘implied
consent’ to a chemical test satisfies the Fourth Amendment, we must determine whether submission to a
chemical test, after advisement under the implied consent law, is freely and voluntarily given and constitutes
actual consent.” (Harris, supra, 234 Cal.App.4th at p.
686, 184 Cal.Rptr.3d 198.) The totality of the circumstances that must be considered in determining if consent is voluntary includes not only advance consent,
but the driver’s conduct at the time of arrest and the
circumstances surrounding the testing.

2

In his briefing, Balov discusses another implied consent
statute, section 13384, which makes consent to chemical testing
if arrested for driving under the influence a condition of obtaining
a California driver’s license. As the city attorney points out in her
brief, however, the People did not rely on this provision in the
trial court and it is not relevant on appeal.

App. 8
II
As he did below, Balov argues that because he was
not informed by Martinez that he could object to chemical testing, his consent to the blood test was not voluntary and the warrantless search was obtained in
violation of his Fourth Amendment right. In support of
this argument, Balov looks primarily to the United
States Supreme Court’s decision in Bumper v. North
Carolina (1968) 391 U.S. 543, 88 S.Ct. 1788, 20 L.Ed.2d
797 (Bumper). Bumper considered whether a false
claim by law enforcement that it had a warrant to
search the defendant’s home vitiated the defendant’s
cohabitant’s subsequent consent to the search. The
court held that it did, stating that a “search conducted
in reliance upon a warrant cannot later be justified on
the basis of consent if it turns out that the warrant was
invalid.” (Id. at p. 549, 88 S.Ct. 1788.)
Balov agrees that “it is the totality of circumstances of an individual’s consent that must be analyzed to determine whether consent was voluntary or
coerced.” However, he argues that Martinez’s statement “that per California Law [Balov] was required to
submit to a chemical test,” is no different than the false
claim of a search warrant in Bumper and precludes a
finding that Balov’s consent was voluntary. We do not
agree. Unlike law enforcement’s claim in Bumper, Martinez’s statement to Balov was not false.
Section 23612 required Balov to submit to a chemical test. If Balov refused, he would have faced the consequences specified under the consent law including a

App. 9
fine, the loss of his driver’s license, and mandatory imprisonment if convicted of driving under the influence.
(§ 23612, subd. (a)(1)(D).) Section 23612 requires the
driver to be told that his or her failure to submit to a
test will result in these consequences.3 However, no
“presumption of invalidity attaches if a citizen consent[s to a search] without explicit notification that he
or she was free to refuse to cooperate. Instead, the
[United States Supreme] Court has repeated that the
totality of the circumstances must control, without giving extra weight to the absence of this type of warning.”
3

The statute provides that the driver “shall be told that his
or her failure to submit to, or the failure to complete, the required
chemical testing will result in a fine, mandatory imprisonment if
the person is convicted of a violation of Section 23152 or 23153,
and (i) the suspension of the person’s privilege to operate a motor
vehicle for a period of one year, (ii) the revocation of the person’s
privilege to operate a motor vehicle for a period of two years if the
refusal occurs within 10 years of a separate violation of Section
23103 as specified in Section 23103.5, or of Section 23140, 23152,
or 23153 of this code, or of Section 191.5 or subdivision (a) of Section 192.5 of the Penal Code that resulted in a conviction, or if the
person’s privilege to operate a motor vehicle has been suspended
or revoked pursuant to Section 13353, 13353.1, or 13353.2 for an
offense that occurred on a separate occasion, or (iii) the revocation
of the person’s privilege to operate a motor vehicle for a period of
three years if the refusal occurs within 10 years of two or more
separate violations of Section 23103 as specified in Section
23103.5, or of Section 23140, 23152, or 23153 of this code, or of
Section 191.5 or subdivision (a) of Section 192.5 of the Penal Code,
or any combination thereof, that resulted in convictions, or if the
person’s privilege to operate a motor vehicle has been suspended
or revoked two or more times pursuant to Section 13353, 13353.1,
or 13353.2 for offenses that occurred on separate occasions, or if
there is any combination of those convictions, administrative suspensions, or revocations.” (§ 23612, subd. (a)(1)(D).)

App. 10
(United States v. Drayton (2002) 536 U.S. 194, 207, 122
S.Ct. 2105, 153 L.Ed.2d 242; see Harris, supra, 234
Cal.App.4th at p. 692, 184 Cal.Rptr.3d 198 [“failure to
strictly follow the implied consent law does not violate
a defendant’s constitutional rights”].)
Here, Balov freely consented to the search of his
blood. After driving on the public road and being lawfully arrested for driving under the influence, Martinez
correctly told Balov he was required to submit to a
breath or a blood test. Although the statement was incomplete under section 23612, subdivision (a)(1)(D),
there was no evidence Martinez intended to deceive Balov about his right to refuse a test altogether.
Nor was Martinez’s statement about the implied consent law demonstrably false.4 (See Harris, supra, 234
4

Balov asserts that under Harris, supra, 234 Cal.App.4th
671, 184 Cal.Rptr.3d 198, which also upheld a consensual search
under similar facts, we must conclude that his consent was coerced because – unlike the officer in Harris – Martinez did not
reference the consequences of refusal. In Harris, the defendant
was pulled over for speeding and dangerous driving, and then arrested after exhibiting signs of drug use. The arresting officer told
the defendant “that, based on his belief that defendant was under
the influence of a drug, defendant was required to submit to a
chemical blood test. [The officer] advised defendant that he did
not have the right to talk to a lawyer when deciding whether to
submit to the chemical test, that refusal to submit to the test
would result in the suspension of his driver’s license, and that refusal could be used against him in court. Defendant responded,
‘okay,’ and [the officer] testified that at no time did defendant appear unwilling to provide a blood sample.” (Id. at p. 678, 184
Cal.Rptr.3d 198.)
On appeal of the denial of the defendant’s motion to suppress, the Court of Appeal rejected the defendant’s argument that
his consent was not voluntary because the arresting officer’s

App. 11
Cal.App.4th at p. 692, 184 Cal.Rptr.3d 198 [“failure to
strictly follow the implied consent law does not violate
a defendant’s constitutional rights”].) Martinez’s failure to communicate the consequences of refusing a
chemical test did not make Martinez’s statement any
more or less coercive than if the information had been
provided. In neither case is the driver advised of his or
her right to refuse to test altogether.5
statements concerning the implied consent law were false. The
defendant argued the officer’s statements were false because section 23612, subdivision (a)(1)(A) requires the driver to “be given
the choice between a blood or breath test” and that the officer incorrectly informed him that his license would be suspended for
two or three years (rather than one year). (Harris, supra, 234
Cal.App.4th at p. 691, 184 Cal.Rptr.3d 198.) In rejecting this argument, the Harris court upheld the trial court’s finding that the
arresting officer did not intentionally deceive the defendant about
the implied consent law and concluded the trial court appropriately considered all the circumstances to find the defendant’s
consent to the blood test was voluntary. (Id. at pp. 691-692, 184
Cal.Rptr.3d 198.) Contrary to Balov’s assertion, Harris does not
hold that failure to inform the defendant of the consequences of
refusing a chemical test under section 23612 necessarily results
in coerced consent. Rather, Harris reiterates the principle that
the court must look at the totality of the circumstances to determine the voluntariness of a defendant’s consent.
5
Likewise, we disagree with Mason, supra, 8 Cal.App.5th
Supp. 11, 214 Cal.Rptr.3d 685 that the failure to communicate
the consequences of refusing the chemical test necessarily conveys to the driver that refusal to test is not an option. Indeed, the
Mason panel itself conceded that this conclusion is merely an implication that could be drawn by the driver, and not a necessary
conclusion. (Id. at p. 33, 214 Cal.Rptr.3d 685.) “[R]equiring the
statutory admonition about the consequences of withdrawing consent in every case, or even treating that as the critical factor,
would improperly elevate the admonishment to a constitutional
requirement under the Fourth Amendment.” (Agnew, supra, 242

App. 12
Further, at no point before or after Balov consented to the test did he indicate any objection. Looking at the totality of the circumstances, including
Martinez’s conduct, the existence of the implied consent law, and Balov’s actions before and after he consented, we cannot say the trial court’s finding that
Balov voluntarily consented to the blood test was error.
DISPOSITION
The order is affirmed.
WE CONCUR:
HUFFMAN, J.
O’ROURKE, J.

Cal.App.4th Supp. at p. 16, 195 Cal.Rptr.3d 486; see Ritschel
v. City of Fountain Valley (2006) 137 Cal.App.4th 107, 119, 40
Cal.Rptr.3d 48 [rejecting plaintiff ’s claim that his Fourth Amendment right against an unreasonable search was violated by the
police officers’ failure to comply with section 23612].)

App. 13
COURT OF APPEAL,
FOURTH APPELLATE DISTRICT
DIVISION ONE
STATE OF CALIFORNIA
THE PEOPLE,

D073018

Plaintiff and Respondent,

(San Diego County
Super. Ct. Nos
CA270404 &
M199722)

v.
PETER BALOV,
Defendant and Appellant.

(Filed Oct. 30, 2017)

THE COURT:
Upon certification by the appellate division of the
superior court that transfer is necessary to secure uniformity of decision and to settle an important question of law (Cal. Rules of Court, rule 8.1005(a)(1)), the
case is ordered transferred to this court for hearing
and decision (id., rule 8.1008(a)(1)(A)). Briefing shall
be in accordance with California Rules of Court, rule
8.1012(b)-(d).
O’ROURKE, Acting P. J.
Copies to: All parties

App. 14
SUPERIOR COURT OF THE
STATE OF CALIFORNIA
COUNTY OF SAN DIEGO,
APPELLATE DIVISION
THE PEOPLE OF THE
Appellate Division No.:
STATE OF CALIFORNIA,
CA270404
Trial Court Case No.:
Plaintiff(s) and
M199722
Respondent(s),
Trial Court Location:
v.
Central Division
PETER BALOV,
DECISION/STATEMENT
OF REASONS
Defendant(s) and
(CCP § 77(b)) BY
Appellant(s).
THE COURT
(Filed Oct. 13, 2017)
APPEAL from the order denying defendant Peter
Balov’s pre-trial Penal Code section 1538.5 motion to
suppress evidence entered by the Superior Court, San
Diego County, Timothy R. Walsh, Judge. Following argument on September 28, 2017, this matter was taken
under submission.
AFFIRMED.
Mr. Balov was arrested for driving under the influence in violation of Vehicle Code section 23152, subdivisions (a) and (b). Mr. Balov was told by the arresting
San Diego Harbor Patrol Officer that California law requires him to complete a breath or blood chemical test.
Mr. Balov chose a blood test. The arresting officer did
not inform Mr. Balov that he could refuse to take a

App. 15
chemical test. The trial court denied the suppression
motion because Mr. Balov voluntarily consented to the
chemical blood test consistent with the Fourth Amendment of the United States Constitution and Vehicle
Code section 23612 (“implied consent”).
When reviewing a trial court’s ruling on a Penal
Code section 1538.5 motion, the court should “defer to
the trial court’s factual findings, express or implied,
where supported by substantial evidence. In determining whether, on the facts so found, the search or seizure
was reasonable under the Fourth Amendment, we exercise our independent judgment. [Citations.]” (People
v. Glaser (1995) 11 Cal.4th 354, 362.) The facts in this
case are generally not in dispute.
Vehicle Code section 23612 states in part: “A person who drives a motor vehicle is deemed to have given
his or her consent to chemical testing of his or her
blood or breath for the purpose of determining the alcoholic content of his or her blood, if lawfully arrested
for an offense allegedly committed in violation of Section 23140, 23152, or 23153.” The California Supreme
Court has held that “section 23612 applies broadly and
generally to ‘those who drive’—that is, to those who
avail themselves of the public streets, roads, and highways to operate motor vehicles in this state.” (Troppman v. Valverde (2007) 40 Cal.4th 1121, 1139.) Even
with advance consent, however, appellant could have
withdrawn that consent and objected to the blood test.
In Missouri v. McNeely (2013) 569 U.S. ___, 133 S.Ct.
1552, the United States Supreme Court recognized the

App. 16
tool of advance consent. In McNeely, the Supreme
Court addressed whether the natural metabolization
of alcohol in the bloodstream presented a per se exigency that justifies an exception to the Fourth Amendment’s warrant requirement for nonconsensual blood
testing in all drunk-driving cases, and held that it did
not. (Id. at p. 1556.)
In People v. Harris (2015) 234 Cal.App.4th 671, the
Court of Appeal held that warrantless blood draws are
not limited to the exception of exigent circumstances
under McNeely. (Id. at p. 684.) The Court of Appeal
found that actual consent under the implied consent
statute satisfies the Fourth Amendment. (Id. at p. 689.)
The Court, applying “the normal totality of circumstances analysis,” found that defendant’s submission to
the blood draw was free and voluntary. (Ibid.) In Harris, moreover, the Court addressed defendant’s further
contention that consent was invalid because the officer’s admonition was false in certain respects. The
Court of Appeal found “nothing in the record to support
defendant’s suggestion that Deputy Robinson intentionally deceived him about the contours of the implied
consent law.” (Id. at p. 691.) The admonition, “though
not entirely accurate, was not patently false,” and the
officer correctly informed the defendant of certain consequences. (Ibid.) The Court of Appeal recognized that
“failure to strictly follow the implied consent law does
not violate a defendant’s constitutional rights. [Citations.]” (Id. at p. 692.)
In Ritschel v. City of Fountain Valley (2006) 137
Cal.App.4th 107, the Court of Appeal affirmed the

App. 17
dismissal of civil rights claims that were based on officers’ forcible taking of a blood sample. The plaintiff
alleged that the officers had failed to comply with California’s implied consent law by not offering him a
choice between blood or breath tests, and therefore had
violated his constitutional rights. The Court rejected
the claim under the Fourth Amendment, holding that
“even assuming the officers violated plaintiff ’s statutory rights under California’s implied consent law, it
was not a violation of his federal constitutional rights.”
(Id. at p. 118, original italics.) “California case law unequivocally establishes a police officer’s failure to comply with the implied consent law does not amount to a
violation of an arrestee’s constitutional rights.” (Ibid.)
“More apropos to the present appeal, case law has rejected contentions that a failure to advise an arrestee
of the tests available or to honor the arrestee’s choice
of a particular test amounts to a constitutional violation. [Citations.]” (Id. at p. 119.)
The United States Supreme Court, in evaluating
consent under the Fourth Amendment in other contexts, has consistently refused to require informing the
person of the right to refuse a request to search. In
United States v. Drayton (2002) 536 U.S. 194, 122 S.Ct.
2015 for example, the Court considered the searches of
two passengers traveling together on a bus. The federal
Court of Appeals in that case had reversed denials of
motions to suppress, adopting “what is in effect a per
se rule that evidence obtained during suspicionless
drug interdiction efforts aboard buses must be suppressed unless the officers have advised passengers of

App. 18
their right not to cooperate and to refuse consent to a
search.” (Id. at p. 202.) The Supreme Court reversed
the Court of Appeals. “The Court has rejected in specific terms the suggestion that police officers must always inform citizens of their right to refuse when
seeking permission to conduct a warrantless consent
search.” (Id. at p. 206.) “Nor do this Court’s decisions
suggest that even though there are no per se rules, a
presumption of invalidity attaches if a citizen consented without explicit notification that he or she was
free to refuse to cooperate. Instead, the Court has repeated that the totality of the circumstances must control, without giving extra weight to the absence of this
type of warning.” (Id. at p. 207.)
In United States v. Watson (1976) 423 U.S. 411, 96
S.Ct. 820, the Supreme Court considered consent given
while under arrest and in custody. “[T]he fact of custody alone has never been enough in itself to demonstrate a coerced confession or consent to search.
Similarly, . . . the absence of proof that Watson knew
he could withhold his consent, though it may be a
factor in the overall judgment, is not to be given controlling significance.” (Id. at p. 424.) “In these circumstances, to hold that illegal coercion is made out from
the fact of arrest and the failure to inform the arrestee
that he could withhold consent would not be consistent
with Schneckloth [v. Bustamonte (1973) 412 U.S. 218,
93 S.Ct. 2041] and would distort the voluntariness
standard that we reaffirmed in that case.” (Watson,
supra, 423 U.S. at p. 425.)

App. 19
In all the above cases addressing consent under
the Fourth Amendment, the Supreme Court was addressing the purported failure to inform persons of the
right to refuse voluntary consent, where there was no
advance consent, and where the consequences of refusing consent were not codified. Here, appellant provided
advance consent under the implied consent law, and
appellant is relying upon the failure to inform him of
the consequences of withdrawing that consent, which
are stated in the statute. In addition, appellant is presumed to know the law. (People v. Hagedorn (2005) 127
Cal.App.4th 734, 748.) Applying the Supreme Court’s
analysis in the cases discussed above, the statutory admonishment of the consequences of refusing to submit
to testing under Vehicle Code section 23612 is not a
constitutional requirement under the Fourth Amendment. (People. v. Agnew (2015) 242 Cal.App.4th Supp.
1, 14.)1
This case did not involve the type of coercion or
deception claimed in the cases referenced above. Here,
the officer simply informed appellant that he was required by California law to submit to a blood or breath
1

Appellant relies on the non-binding decision of the Santa
Clara Appellate Division in People v. Mason (2016) 8 Cal.App.5th
Supp. 11. This court finds the reasoning of People v. Agnew (2015)
242 Cal.App.4th Supp. 1, another decision from the Santa Clara
Appellate Division, to be more persuasive—that the statutory admonishment of the consequences of refusing to submit to testing
under section 23612 is not a constitutional requirement under the
Fourth Amendment; it is “only a factor in weighing the voluntariness of consent under the totality of the circumstances.” (Id. at
p. 16.)

App. 20
test, which is an accurate statement of the implied consent law, and he verbally chose the blood test. Under
the implied consent law, a motorist consents in advance to testing if arrested for driving under the influence, and the issue is then whether the arrested
motorist withdraws that consent by refusing to test. In
citing the legal tool of implied consent laws, the Supreme Court recognized that such laws impose significant consequences when a motorist “withdraws”
consent. (McNeely, supra, 133 S.Ct. at p. 1566.) The implied consent statute is not framed in terms of having
to request consent once a motorist is arrested, with a
choice at that time of whether to consent to a chemical
test or refuse a test and face later specified consequences. The issue under the implied consent law is
whether appellant withdrew advance consent to testing. The fact that an officer might not provide the statutory admonition concerning the consequences of the
refusal to test is a fact to be considered in weighing
consent under the totality of all the circumstances. Relying on that fact as the only dispositive fact to defeat
consent in effect elevates that statutory admonition
into a constitutional requirement under the Fourth
Amendment. (People v. Agnew, supra, 242 Cal.App.4th
Supp. at pp. 18-19.)
The motion to suppress was based solely on the
testimony of the arresting officer. According to the officer’s testimony, Mr. Balov said, “I want to have a blood
test.” The officer did not threaten appellant with force
or state that, even if appellant refused, a test would be
forced. Appellant did not object or resist in any way in

App. 21
providing the blood sample. These facts support the
trial court’s finding that Mr. Balov voluntarily consented to the blood test. Finally, appellant requested
judicial notice of Mr. Balov’s valid California driver’s
license. That request is denied (Evid. Code, §459), but
even if the appellate record included evidence that Mr.
Balov had a valid license, it would not alter our decision.
The trial court’s denial of the motion to suppress
evidence is affirmed, and the case is remanded to the
trial court for further proceedings consistent with this
decision.
Unanimously affirmed.
KERRY WELLS
Presiding Judge, Appellate Division
CHARLES R. GILL
Judge, Appellate Division
GALE E. KANESHIRO
Judge, Appellate Division
[Clerk’s Certificate Of Service By Mail Omitted]

App. 22
Court of Appeal, Fourth Appellate District,
Division One - No. D073018
S249708
IN THE SUPREME COURT OF CALIFORNIA
En Banc
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

THE PEOPLE, Plaintiff and Respondent,
v.
PETER BALOV, Defendant and Appellant.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

(Filed Sep. 12, 2018)
The petition for review is granted. Further action in this matter is deferred pending consideration
and disposition of a related issue in People v. Arredondo (Marcus), S233582 (see Cal. Rules of Court, rule
8.512(d)(2)), or pending further order of the court. Submission of additional briefing, pursuant to California
Rules of Court, rule 8.520, is deferred pending further
order of the court.
Cantil-Sakauye
Chief Justice
Chin
Associate Justice
Corrigan
Associate Justice

App. 23
Liu
Associate Justice
Cuéllar
Associate Justice
Kruger
Associate Justice

Associate Justice

App. 24
Court of Appeal, Fourth Appellate District,
Division One - No. D073018
S249708
IN THE SUPREME COURT OF CALIFORNIA
En Banc
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

THE PEOPLE, Plaintiff and Respondent,
v.
PETER BALOV, Defendant and Appellant.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

(Filed Aug. 28, 2019)
Review in the above-captioned matter, which was
granted and held for People v. Arredondo (S233582), is
hereby dismissed. (Cal. Rules of Court, rule 8.528(b)(1).)
Cantil-Sakauye
Chief Justice
Chin
Associate Justice
Corrigan
Associate Justice
Liu
Associate Justice
Cuéllar
Associate Justice

App. 25
Kruger
Associate Justice
Groban
Associate Justice

App. 26
West’s Ann.Cal.Vehicle Code § 23152. Driving under
influence; blood alcohol percentage; presumptions
Effective: January 1, 2017
(a) It is unlawful for a person who is under the influence of any alcoholic beverage to drive a vehicle.
(b) It is unlawful for a person who has 0.08 percent
or more, by weight, of alcohol in his or her blood to
drive a vehicle.
For purposes of this article and Section 34501.16, percent, by weight, of alcohol in a person’s blood is based
upon grams of alcohol per 100 milliliters of blood or
grams of alcohol per 210 liters of breath.
In any prosecution under this subdivision, it is a rebuttable presumption that the person had 0.08 percent or
more, by weight, of alcohol in his or her blood at the
time of driving the vehicle if the person had 0.08 percent or more, by weight, of alcohol in his or her blood
at the time of the performance of a chemical test within
three hours after the driving.
(c) It is unlawful for a person who is addicted to the
use of any drug to drive a vehicle. This subdivision
shall not apply to a person who is participating in a
narcotic treatment program approved pursuant to Article 3 (commencing with Section 11875) of Chapter 1
of Part 3 of Division 10.5 of the Health and Safety
Code.
(d) It is unlawful for a person who has 0.04 percent
or more, by weight, of alcohol in his or her blood to
drive a commercial motor vehicle, as defined in Section

App. 27
15210. In a prosecution under this subdivision, it is a
rebuttable presumption that the person had 0.04 percent or more, by weight, of alcohol in his or her blood
at the time of driving the vehicle if the person had 0.04
percent or more, by weight, of alcohol in his or her
blood at the time of the performance of a chemical test
within three hours after the driving.
(e) Commencing July 1, 2018, it shall be unlawful for
a person who has 0.04 percent or more, by weight, of
alcohol in his or her blood to drive a motor vehicle
when a passenger for hire is a passenger in the vehicle
at the time of the offense. For purposes of this subdivision, “passenger for hire” means a passenger for whom
consideration is contributed or expected as a condition
of carriage in the vehicle, whether directly or indirectly
flowing to the owner, operator, agent, or any other person having an interest in the vehicle. In a prosecution
under this subdivision, it is a rebuttable presumption
that the person had 0.04 percent or more, by weight, of
alcohol in his or her blood at the time of driving the
vehicle if the person had 0.04 percent or more, by
weight, of alcohol in his or her blood at the time of the
performance of a chemical test within three hours after
the driving.
(f) It is unlawful for a person who is under the influence of any drug to drive a vehicle.
(g) It is unlawful for a person who is under the combined influence of any alcoholic beverage and drug to
drive a vehicle.

App. 28
West’s Ann.Cal.Vehicle Code § 23612.
Chemical, blood, breath, or urine tests
Effective: January 1, 2019
(a)(1)(A) A person who drives a motor vehicle is
deemed to have given his or her consent to chemical
testing of his or her blood or breath for the purpose of
determining the alcoholic content of his or her blood, if
lawfully arrested for an offense allegedly committed in
violation of Section 23140, 23152, or 23153. If a blood
or breath test, or both, are unavailable, then paragraph
(2) of subdivision (d) applies.
(B) A person who drives a motor vehicle is deemed to
have given his or her consent to chemical testing of his
or her blood for the purpose of determining the drug
content of his or her blood, if lawfully arrested for an
offense allegedly committed in violation of Section
23140, 23152, or 23153. If a blood test is unavailable,
the person shall be deemed to have given his or her
consent to chemical testing of his or her urine and shall
submit to a urine test.
(C) The testing shall be incidental to a lawful arrest
and administered at the direction of a peace officer
having reasonable cause to believe the person was
driving a motor vehicle in violation of Section 23140,
23152, or 23153.
(D) The person shall be told that his or her failure to
submit to, or the failure to complete, the required
breath or urine testing will result in a fine and mandatory imprisonment if the person is convicted of a

App. 29
violation of Section 23152 or 23153. The person shall
also be told that his or her failure to submit to, or the
failure to complete, the required breath, blood, or urine
tests will result in (i) the administrative suspension by
the department of the person’s privilege to operate a
motor vehicle for a period of one year, (ii) the administrative revocation by the department of the person’s
privilege to operate a motor vehicle for a period of two
years if the refusal occurs within 10 years of a separate
violation of Section 23103 as specified in Section
23103.5, or of Section 23140, 23152, or 23153 of this
code, or of Section 191.5 or subdivision (a) of Section
192.5 of the Penal Code that resulted in a conviction,
or if the person’s privilege to operate a motor vehicle
has been suspended or revoked pursuant to Section
13353, 13353.1, or 13353.2 for an offense that occurred
on a separate occasion, or (iii) the administrative revocation by the department of the person’s privilege to
operate a motor vehicle for a period of three years if
the refusal occurs within 10 years of two or more separate violations of Section 23103 as specified in Section
23103.5, or of Section 23140, 23152, or 23153 of this
code, or of Section 191.5 or subdivision (a) of Section
192.5 of the Penal Code, or any combination thereof,
that resulted in convictions, or if the person’s privilege
to operate a motor vehicle has been suspended or revoked two or more times pursuant to Section 13353,
13353.1, or 13353.2 for offenses that occurred on separate occasions, or if there is any combination of those
convictions, administrative suspensions, or revocations.

App. 30
(2)(A) If the person is lawfully arrested for driving
under the influence of an alcoholic beverage, the person has the choice of whether the test shall be of his or
her blood or breath and the officer shall advise the person that he or she has that choice. If the person arrested either is incapable, or states that he or she is
incapable, of completing the chosen test, the person
shall submit to the remaining test. If a blood or breath
test, or both, are unavailable, then paragraph (2) of
subdivision (d) applies.
(B) If the person is lawfully arrested for driving under the influence of any drug or the combined influence
of an alcoholic beverage and any drug, the person has
the choice of whether the test shall be of his or her
blood or breath, and the officer shall advise the person
that he or she has that choice.
(C) A person who chooses to submit to a breath test
may also be requested to submit to a blood test if the
officer has reasonable cause to believe that the person
was driving under the influence of a drug or the combined influence of an alcoholic beverage and a drug and
if the officer has reasonable cause to believe that a
blood test will reveal evidence of the person being under the influence. The officer shall state in his or her
report the facts upon which those beliefs are based.
The officer shall advise the person that he or she is required to submit to an additional test. The person shall
submit to and complete a blood test. If the person arrested is incapable of completing the blood test, the
person shall submit to and complete a urine test.

App. 31
(3) If the person is lawfully arrested for an offense allegedly committed in violation of Section 23140, 23152,
or 23153, and, because of the need for medical treatment, the person is first transported to a medical facility where it is not feasible to administer a particular
test of, or to obtain a particular sample of, the person’s
blood or breath, the person has the choice of those
tests, including a urine test, that are available at the
facility to which that person has been transported. In
that case, the officer shall advise the person of those
tests that are available at the medical facility and that
the person’s choice is limited to those tests that are
available.
(4) The officer shall also advise the person that he or
she does not have the right to have an attorney present
before stating whether he or she will submit to a test
or tests, before deciding which test or tests to take, or
during administration of the test or tests chosen, and
that, in the event of refusal to submit to a test or tests,
the refusal may be used against him or her in a court
of law.
(5) A person who is unconscious or otherwise in a condition rendering him or her incapable of refusal is
deemed not to have withdrawn his or her consent and
a test or tests may be administered whether or not the
person is told that his or her failure to submit to, or the
noncompletion of, the test or tests will result in the
suspension or revocation of his or her privilege to operate a motor vehicle. A person who is dead is deemed
not to have withdrawn his or her consent and a test or

App. 32
tests may be administered at the direction of a peace
officer.
(b) A person who is afflicted with hemophilia is exempt from the blood test required by this section, but
shall submit to and complete a urine test
(c) A person who is afflicted with a heart condition
and is using an anticoagulant under the direction of a
licensed physician and surgeon is exempt from the
blood test required by this section, but shall submit to,
and complete, a urine test.
(d)(1) A person lawfully arrested for an offense allegedly committed while the person was driving a motor
vehicle in violation of Section 23140, 23152, or 23153
may request the arresting officer to have a chemical
test made of the arrested person’s blood or breath for
the purpose of determining the alcoholic content of
that person’s blood, and, if so requested, the arresting
officer shall have the test performed.
(2) If a blood or breath test is not available under subparagraph (A) of paragraph (1) of subdivision (a), or
under subparagraph (A) of paragraph (2) of subdivision (a), or under paragraph (1) of this subdivision, the
person shall submit to the remaining test in order to
determine the percent, by weight, of alcohol in the person’s blood. If both the blood and breath tests are unavailable, the person shall be deemed to have given his
or her consent to chemical testing of his or her urine
and shall submit to a urine test.

App. 33
(e) If the person, who has been arrested for a violation of Section 23140, 23152, or 23153, refuses or fails
to complete a chemical test or tests, or requests that a
blood or urine test be taken, the peace officer, acting on
behalf of the department, shall serve the notice of the
order of suspension or revocation of the person’s privilege to operate a motor vehicle personally on the arrested person. The notice shall be on a form provided
by the department.
(f) If the peace officer serves the notice of the order of
suspension or revocation of the person’s privilege to operate a motor vehicle, the peace officer shall take possession of all driver’s licenses issued by this state that
are held by the person. The temporary driver’s license
shall be an endorsement on the notice of the order of
suspension and shall be valid for 30 days from the date
of arrest.
(g)(1) The peace officer shall immediately forward a
copy of the completed notice of suspension or revocation form and any driver’s license taken into possession under subdivision (f ), with the report required by
Section 13380, to the department. If the person submitted to a blood or urine test, the peace officer shall
forward the results immediately to the appropriate forensic laboratory. The forensic laboratory shall forward
the results of the chemical tests to the department
within 15 calendar days of the date of the arrest.
(2)(A) Notwithstanding any other law, a document
containing data prepared and maintained in the governmental forensic laboratory computerized database

App. 34
system that is electronically transmitted or retrieved
through public or private computer networks to or by
the department is the best available evidence of the
chemical test results in all administrative proceedings
conducted by the department. In addition, any other
official record that is maintained in the governmental
forensic laboratory, relates to a chemical test analysis
prepared and maintained in the governmental forensic
laboratory computerized database system, and is electronically transmitted and retrieved through a public
or private computer network to or by the department
is admissible as evidence in the department’s administrative proceedings. In order to be admissible as evidence in administrative proceedings, a document
described in this subparagraph shall bear a certification by the employee of the department who retrieved
the document certifying that the information was received or retrieved directly from the computerized database system of a governmental forensic laboratory
and that the document accurately reflects the data received or retrieved.
(B) Notwithstanding any other law, the failure of an
employee of the department to certify under subparagraph (A) is not a public offense.
(h) A preliminary alcohol screening test that indicates the presence or concentration of alcohol based on
a breath sample in order to establish reasonable cause
to believe the person was driving a vehicle in violation
of Section 23140, 23152, or 23153 is a field sobriety test
and may be used by an officer as a further investigative
tool.

App. 35
(i) If the officer decides to use a preliminary alcohol
screening test, the officer shall advise the person that
he or she is requesting that person to take a preliminary alcohol screening test to assist the officer in determining if that person is under the influence of
alcohol or drugs, or a combination of alcohol and drugs.
The person’s obligation to submit to a blood, breath, or
urine test, as required by this section, for the purpose
of determining the alcohol or drug content of that person’s blood, is not satisfied by the person submitting to
a preliminary alcohol screening test. The officer shall
advise the person of that fact and of the person’s right
to refuse to take the preliminary alcohol screening
test.

